<html>
<title> - NOMINATION OF HON. RAND BEERS</title>
<body><pre>[Senate Hearing 111-676]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-676
 
                     NOMINATION OF HON. RAND BEERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

NOMINATION OF HON. RAND BEERS TO BE UNDER SECRETARY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                              JUNE 2, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
51-780                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                       Jeffrey E. Greene, Counsel
               Kristine V. Lam, Professional Staff Member
            Deborah P. Parkinson, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Akaka................................................    12
    Senator Burris...............................................    14
    Senator Voinovich............................................    15
Prepared statements:
    Senator Lieberman............................................    25
    Senator Collins..............................................    27

                               WITNESSES
                         Tuesday, June 2, 2009

General John A. Gordon, U.S. Air Force, Retired..................     3
Hon. Rand Beers to be Under Secretary, U.S. Department of 
  Homeland Security..............................................     5

                     Alphabetical List of Witnesses

Beers, Hon. Rand:
    Testimony....................................................     5
    Prepared statement...........................................    28
    Biographical and financial information.......................    33
    Responses to pre-hearing questions...........................    44
    Letter from the Office of Government Ethics with an 
      attachment.................................................    94
    Responses to post-hearing questions for the Record...........    96
    Letter of Support from Hon. Michael Chertoff.................   100

Gordon, General John A.:
    Testimony....................................................     3


                     NOMINATION OF HON. RAND BEERS

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Burris, Collins, and 
Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon and thanks to all of you 
for coming to this hearing today for the nomination of Rand 
Beers to be the Under Secretary for the National Protection and 
Programs Directorate (NPPD) at the Department of Homeland 
Security (DHS).
    Rand Beers is a highly qualified nominee with a record of 
more than 30 years of public service, dating back to his 
service as a Marine in Vietnam. He has served in Democratic and 
Republican Administrations, working as the Senior Director for 
Combating Terrorism at the National Security Council (NSC) 
during the Administration of President George W. Bush, as 
Assistant Secretary of State for International Narcotics and 
Law Enforcement Affairs during the Clinton Administration, and 
as Director of Counterterrorism and Counternarcotics at the NSC 
during the Administration of President George Herbert Walker 
Bush.
    More recently, Mr. Beers played a key role in the 
transition at the Department of Homeland Security from the Bush 
to the Obama Administrations, which by all accounts was about 
as good as a transition can possibly be, and since then has 
been a chief counselor to Secretary Napolitano.
    If confirmed, Mr. Beers will be required to apply this 
wealth of experience to harness and provide vision for the 
National Protection and Programs Directorate, which includes 
quite a wide variety of responsibilities, including cyber 
security, infrastructure protection, foreign traveler 
screening, and emergency communications. The President's fiscal 
year 2010 budget proposes to expand this Directorate further by 
moving the Federal Protective Service (FPS) into it.
    Let me just talk about a few of the areas that I hope and I 
know will be priorities, if confirmed. Cyber security is 
clearly one of those. The threat of cyber attacks is an urgent 
national security, homeland security challenge, as we know. 
Last week, President Obama announced the results of the 60-day 
review of cyber security policy and government structures. I am 
grateful for the President's focus on this issue and 
particularly reassured that, as the President sees it, the 
Department of Homeland Security has a central role to play in 
any government-wide cyber security strategy, and the NPPD is 
the part of the Department that will lead its efforts in that 
regard. I look forward to hearing what Mr. Beers thinks the 
Department's role should be and how he will ensure that DHS has 
the necessary tools to perform the job.
    NPPD's critical infrastructure responsibilities are equally 
challenging because the majority of the Nation's critical 
infrastructure--our energy, communications, and transportation 
networks, all potential targets of terrorism--are owned and 
operated by the private sector. The Department must work 
closely with the private sector to ascertain that the 
appropriate security measures are being taken. The lesson from 
Mumbai, London, and Madrid is that terrorists will seek out 
soft targets, such as hotels, shopping malls, and inner-city 
transit lines, so we must accelerate our efforts to harden 
those targets.
    NPPD also plays a critical role in our Nation's security 
through the U.S. Visitor and Immigrant Status Indicator 
Technology (US-VISIT) program, which requires foreign nationals 
to undergo biometric screening as they enter the country. The 
9/11 Commission concluded that three of the September 11, 2001, 
hijackers had overstayed their U.S. visas and concluded that 
requiring biometric exit screening was vital to homeland 
security. In fact, if we had implemented a biometric system to 
detect overstays prior to September 11, 2001, there is some 
reason to believe that we could have prevented the attacks of 
September 11, 2001. I am very concerned that almost 8 years 
later, despite the clear need for a viable biometric exit 
system, we still do not have such a workable system in place. 
The Committee will continue to work with the Department of 
Homeland Security to ensure that a secure system is 
expeditiously deployed, of course, at the Nation's airports, 
and I look forward to discussing that with Mr. Beers today.
    Many other challenges face the NPPD, including the future 
of our chemical security regulation system, the Directorate's 
challenge in hiring and retaining qualified staff, and the 
overdependence, as I see it, on contractors to do what 
otherwise might be considered inherently governmental work. I 
look forward to working closely with the new Under Secretary to 
reauthorize and strengthen the Department's Chemical Facility 
Anti-Terrorism Standards (CFATS), the chemical security site 
program.
    So, bottom line, Rand Beers is a very experienced public 
servant. If confirmed, he will need all that experience to be 
put to use as the Director of the NPPD to protect our homeland 
security.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I join the 
Chairman in welcoming Rand Beers as the nominee today. As the 
Chairman has indicated, the scope and importance of the NPPD's 
responsibilities are daunting. The Directorate is charged with 
ensuring successful implementation of the chemical facility 
security program that was authorized in 2006 due to the work of 
this Committee. This program is one that needs to be 
reauthorized this year. It also is charged with assessing the 
risk to our Nation's critical infrastructure, managing 
voluntary private sector coordination programs to achieve the 
goals of the National Infrastructure Protection Plan, leading 
the Department's effort to protect our Nation against 
improvised explosive devices and working to combat terrorists' 
use of such explosives in the United States, and protecting the 
Nation's cyber networks.
    The Chairman and I have focused a great deal on that last 
responsibility, cyber security. It is both critical and 
complex. The complexity arises not just from the technical 
nature of the issue, but from the disjointed approach that the 
Federal Government has taken. In the course of the coming 
months, cyber security responsibilities across the Federal 
Government will be the subject of much debate as we consider 
the Administration's plan and alternative legislative proposals 
to strengthen our cyber security efforts.
    DHS's relationships with the critical infrastructure 
sectors that both provide for and rely on information 
technology services will remain invaluable in ensuring a 
coordinated defense against cyber attacks. I look forward to 
hearing from Mr. Beers about how, if confirmed, his management 
of DHS's cyber security efforts will be affected by the White 
House's new cyber security initiative.
    NPPD also manages programs that benefit components across 
the Department, including, as the Chairman has indicated, the 
US-VISIT program that screens the biometrics collected from 
visitors to the United States against immigration and criminal 
databases. US-VISIT has been struggling for years with 
implementing a solution to collect biometric information on 
foreign travelers departing the country, a responsibility that 
is required by law but has not been fully realized.
    Should Mr. Beers be confirmed, these are just some of the 
critical challenges that are awaiting his leadership and 
considerable expertise. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    I would like to welcome retired General John Gordon of the 
U.S. Air Force, who is here to introduce our nominee. We are 
honored to have you take the time to be here for that purpose, 
and I call on you at this time.

  TESTIMONY OF GENERAL JOHN A. GORDON, U.S. AIR FORCE, RETIRED

    General Gordon. Thank you, Chairman Lieberman, Senator 
Collins. Good afternoon. I am a retired Air Force officer and a 
former Deputy Director of Central Intelligence, a former 
Secretary of Energy, a former Homeland Security advisor, and so 
I now am a rather interested observer of the national security 
and homeland security scene without a lot of responsibilities, 
and limited responsibilities. But today, I have the most 
pleasant responsibility I have had in a while, which is to 
introduce my friend and my colleague, Rand Beers, to the 
Committee as you consider his nomination to be Under Secretary 
of Homeland Security.
    To cut to the chase, I know of no individual who is better 
qualified nor anyone more suited to take on the vital task of 
protection of America's critical infrastructure, as you both 
have said, the central responsibility of this position. Nor in 
my book is anyone more suited to be a member of Secretary 
Napolitano's leadership team. I offer my unqualified and total 
support for his confirmation.
    Now, to be entirely transparent and with full disclosure, 
Mr. Beers is a close friend and a longtime professional 
colleague. We have worked together in the State Department and 
in the White House for several Presidents, and even so, I do 
not believe that I suffer from any lack of objectivity in 
considering his suitability and qualifications for this vital 
position.
    First, and I do rate this first, Mr. Beers is a patriot. He 
has committed his entire working life to the security of our 
Nation, beginning as a Marine officer and a rifle company 
commander in Vietnam, where he served 4 years. Virtually his 
entire career since then has been in government, largely at the 
State Department and the White House, and he always found his 
true reward in the service he gave to our Nation. He is the 
very model of an American committed to good government, willing 
to give his time, talent, and energy toward that end.
    Mr. Beers is a man of integrity. He can always be counted 
on to do the right thing, to give his objective and well-
considered advice.
    Mr. Beers is proven under fire, and I refer not only to his 
combat experience in Vietnam, but his ability to keep his head 
and work calmly and effectively through some of the toughest 
national security and foreign policy situations, and he 
experienced many of these literal crises as he served in senior 
positions in peacekeeping, counterterrorism, counternarcotics, 
intelligence, and Middle East policy.
    These items all help define the character of the man, but 
can he actually do the job? Yes, I am certain he can. Mr. Beers 
is certainly among the most experienced if not the most 
experienced candidate for a senior position in Homeland 
Security. As mentioned already, he has had huge 
responsibilities in counterterrorism, counternarcotics, 
political and military affairs, peacekeeping and intelligence, 
continuously since he joined the Foreign Service in 1971. As 
you mentioned, Mr. Chairman, he served four Presidents in the 
National Security Council.
    Most recently, Mr. Beers has had the opportunity, I think, 
to reflect a bit about his experiences and about how the 
complex issues of national and homeland security all fit 
together, or at least how they should fit together. For several 
years, he was President of National Security Network, an 
organization that he founded to bring together experts seeking 
to foster discussion of progressive national security ideas. At 
the same time, he was an adjunct professor at the Kennedy 
School of Government at Harvard. My sense is that this time of 
reflection, observation, and teaching has given him a new and 
broader perspective of the national homeland security, along 
with a renewed commitment to the urgent task ahead, as well as 
a deeper appreciation of the long-term strategic goals we must 
achieve.
    If confirmed, we can expect Mr. Beers to immediately be 
effective with no spin-up time needed. He co-led the transition 
team, as you mentioned, Mr. Chairman, at the Department for the 
incoming administration where he really looked into every 
aspect of the new and still evolving Department. And today, he 
serves as counselor to Secretary Napolitano, advising her on 
the full breadth of the Secretary's mission. I suspect he has 
identified no shortage of issues worthy of his time and effort, 
and I commend the list that both of you put forward, headed in 
many ways by cyber security in addition to the more standard 
infrastructure protection items.
    Mr. Chairman, as I mentioned at the outset, I am not an 
entirely disinterested observer in this nomination before the 
Committee today. The Department needs the very best leadership 
and the full commitment of true professionals as it comes of 
age and reaches its full stride in what are still very 
dangerous times, and the country needs the very best to take on 
these tough jobs. Rand Beers is one of the very best, and I 
respectfully commend him to the Committee to become Under 
Secretary of Homeland Security. Thank you.
    Chairman Lieberman. Thanks very much, General Gordon. We 
honor you as a former advisor here. The statement was a very 
strong one on Rand Beers' behalf, and we thank you for your 
service.
    We know that you are busy. If you would like to stay, we 
would be happy to have you. If you need to depart, we 
understand that and send you off with our thanks.
    General Gordon. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Rand Beers has filed responses to a 
biographical and financial questionnaire, answered pre-hearing 
questions submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record with the exception of the financial data, which are on 
file and available for public inspection in the Committee's 
offices.
    Mr. Beers, our Committee rules require that all witnesses 
at nomination hearings give their testimony under oath, so I 
would ask you to please stand at this time and raise your right 
hand.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Mr. Beers. I do.
    Chairman Lieberman. Thank you, and please be seated. We 
would be happy to hear an opening statement at this time and 
would welcome also, of course, the introduction of any family 
or guests you have with you.

 TESTIMONY OF HON. RAND BEERS \1\ TO BE UNDER SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Beers. Thank you very much, Mr. Chairman and Senator 
Collins. Thank you for the opportunity to appear before your 
Committee for confirmation. I want to thank the President of 
the United States for nominating me and Secretary Napolitano 
for recommending my nomination to the President.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Beers appears in the Appendix on 
page 28.
---------------------------------------------------------------------------
    I also want to take this opportunity to introduce the 
members of my family, without whom I surely would not be here. 
First, my wife, Bonnie Beers, my son, Nathaniel Beers, and my 
brother, Chuck Appleby, who have all come here to stand behind 
me. In fact, my brother has flown all the way from Vienna, 
Virginia. [Laughter.]
    Sir, as you and others have said, I have spent about 36 
years of my life working for the U.S. Government, and it is a 
profession that I feel honored to have been part of, and I am 
grateful for the opportunity with the President's nomination 
and hopefully with your confirmation to continue to serve the 
government in some capacity. The position for which I have been 
nominated is at the center of protecting America in the 21st 
Century, and I hope that my experience has prepared me amply in 
order to undertake this. The areas of responsibility, starting 
with cyber, are indeed serious and challenging.
    As the President said on Friday, this is a challenge which 
has serious threats to the very national security of our 
country and requires a major response. The President has 
afforded the notion that the White House would have a 
coordinating function, but that the departments and agencies 
would continue to be responsible for the implementation of that 
policy. And as you all are aware, DHS has a major role both in 
the civilian side of the U.S. Government and in the private 
sector for drawing together the best defensive measures and the 
best partnership to make this Nation's cyber infrastructure 
secure. For that civilian side of this ledger, I am a firm 
supporter and believer and believe that DHS is the logical 
place for that responsibility to reside.
    With respect to infrastructure protection, it is and 
represents the core of our post-September 11, 2001, protection 
system, with the 18 Sector Coordinating Councils, the four 
Cross-Sector Councils, as you mentioned, the National 
Infrastructure Protection Plan and the Sector Security Plans, 
which are now underway, the Bomb Prevention Unit, and, of 
course, the chemical section.
    US-VISIT is at the heart of our identity management for 
U.S. visitors and immigrants and as such is linked not just to 
several of the elements within the Department of Homeland 
Security, but with the Departments of State, Justice, and 
Defense, as well. And DHS has two very important pilots in this 
area about which you have spoken, the Air Exit and the Land 
Exit programs, with which we will be working if I am confirmed.
    And finally, the Risk Management and Analysis Office, which 
represents the brain trust for risk management tools and 
concepts to help the Department decision makers make the best 
possible decisions against the risks that we have using the 
resources, both monetary and personnel, to meet them.
    We also have, as you mentioned, the possibility of the 
Federal Protective Service becoming part of NPPD, should 
Congress pass the required legislation for its shift. That, 
too, represents an important addition to the infrastructure 
protection responsibilities of NPPD.
    I think in my briefings in NPPD that it will be an exciting 
place to work, with very talented people facing enormous 
challenges with great opportunities, and I hope that the 
Committee will give me the opportunity to be part of that team 
in confirming me as the Under Secretary.
    Thank you very much, and I stand open to your questions.
    Chairman Lieberman. Thanks very much, Mr. Beers.
    I am going to start my questioning with the standard three 
questions we ask of all nominees. First, is there anything you 
are aware of in your background that might present a conflict 
of interest with the duties of the office to which you have 
been nominated?
    Mr. Beers. No, sir.
    Chairman Lieberman. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Beers. No, sir.
    Chairman Lieberman. And finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Beers. I do, sir.
    Chairman Lieberman. Thank you. We are going to start with a 
round of questions of 7 minutes each.
    Mr. Beers, let me just get some old business out of the way 
before we get to the new business and just do so for the open 
record here. As you know, questions have been raised about 
something that happened when you were on the NSC staff. In 
1996, you received a preliminary briefing regarding efforts by 
the Chinese government to influence congressional elections in 
the United States that year. The briefing you received later 
became a point of contention between the White House and the 
Federal Bureau of Investigation (FBI), in part because your 
superiors were not informed about the briefing at the time it 
occurred.
    I wanted to ask you at the outset here if you could set 
that experience in context and really to ask a question in a 
way with the hardest edge to it. Is there any reason why your 
involvement in that should lead the Members of the Committee to 
have second thoughts about confirming your nomination?
    Mr. Beers. Senator, thank you for the opportunity to speak 
on the record about this. I have not to this point spoken on 
the record about this issue with the exception of the 
questionnaire, which you all asked me to fill out, and I 
welcome this opportunity to correct some of the 
characterizations and misstatements that occurred in that 
public discussion.
    I was serving as the Senior Director for Intelligence 
Programs in the National Security Council staff. One of the 
responsibilities of the Senior Director was to be briefed on a 
regular basis by the Federal Bureau of Investigation with 
respect to counterintelligence activities that the Bureau had 
responsibility for. In the summer of 1996, I was briefed along 
with my FBI assistant by two FBI agents about a new activity 
that they were looking at concerning, as you mentioned, the 
possibility that the Chinese government was seeking in some way 
to influence congressional elections. The briefing itself was 
very preliminary, very sketchy, very limited in detail. The 
Bureau was unable to tell me if they had identified any 
individual Members of Congress or any particular congressional 
races that were being focused on, and the answer to that was 
that they were not.
    As a result of that, I determined that there was not a 
great deal of information available but that it was something 
that I should continue to monitor and asked that I continue to 
be informed about further developments in that process.
    Later on that year, there was a public controversy about 
Chinese efforts to influence the reelection of President 
Clinton and Vice President Gore, and in the course of the media 
discussion of that, this particular piece of information and 
briefing got swept up in the broader discussion, although I 
must say some of the media reporting suggested that this 
particular briefing actually referred to the presidential 
election rather than, as you stated, congressional elections.
    Chairman Lieberman. But there was no reference to the 
presidential election in that briefing that you received?
    Mr. Beers. None whatsoever, sir. And as a result of that, 
Sandy Berger, who was then the National Security Advisor, 
together with the White House General Counsel, launched an 
investigation to find out what was known, what was not known, 
how it had come to pass.
    In the course of that particular investigation, my 
colleague indicated that it was his recollection that the FBI 
told us that we were not to brief more senior members of the 
White House staff. I indicated that I did not remember that 
particular injunction, and I indicated that had that particular 
injunction been communicated to me, I would have ignored it had 
I thought that the information was significant enough that more 
senior members, particularly the National Security Advisor, 
needed to be briefed of that.
    That particular piece of information came to the media's 
attention and those remarks about not being permitted to brief 
up were attributed to me. The FBI then indicated that in no way 
were those briefers ever instructed to make that kind of 
statement, and that became part of the media swirl about all 
this. But I was asked not to talk to the press during that 
period, so I never had an opportunity to correct the record 
with respect to my own involvement in that.
    In retrospect, looking back, I certainly think that my 
judgment at the time would probably have been better served had 
I briefed Anthony Lake, but that was my judgment, and I have to 
accept responsibility for that.
    As a result of that, Sandy Berger gave me a verbal 
reprimand in the spring of 1997, and that was, as far as I 
know, the end of the matter, and it was not a subject of my 
previous confirmation hearing.
    Chairman Lieberman. I appreciate that very much. So as I 
hear it, in addition to nothing being mentioned about the 
presidential election, the reason you did not report up was 
that this was one of a number of items that the FBI was 
briefing you on at that meeting, is that right?
    Mr. Beers. That is correct, sir.
    Chairman Lieberman. And that the level of the briefing was 
general or vague?
    Mr. Beers. Yes, sir.
    Chairman Lieberman. Obviously, everybody has to make their 
own judgments, but certainly for myself, that is no obstacle to 
supporting your nomination.
    I am heading to the end of my time, but let me just take us 
to cyber security. There was a lot of concern, certainly on 
this Committee and I hope more broadly, that the review and 
change in policy that we thought might be forthcoming from the 
President last week might undercut the role of the Department 
of Homeland Security. I was personally very relieved to see 
that it did not happen, at least not in what I read. Of course, 
for me, the reason is not just turf, it is that this is a very 
critical element of Homeland Security and it will continue to 
be so for some time to come, to protect both our non-defense 
Federal cyberspace and the private sector that DHS has a 
primary responsibility for.
    Just give me your reaction. You were inside--am I reading 
it right? Do you feel that the role of the Directorate you 
would head, if confirmed, in the Department is being at least 
sustained, if not strengthened, and that you will not be 
undercut by the Cyber Security Coordinator in the White House?
    Mr. Beers. Yes, sir, that is my understanding as recently 
as this morning in a conversation with John Brennan that I had 
before I came up here for my confirmation hearing.
    Chairman Lieberman. Yes, on both counts?
    Mr. Beers. On both counts, that is correct. There was no 
realignment of roles and missions of the Department, and it is 
the view in the White House that the Department of Homeland 
Security will continue to play an absolutely essential role in 
the protection of America's cyber infrastructure.
    Chairman Lieberman. Very good. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to go back to the issue in 1996 on the briefing that 
you received from the FBI agents who alerted you to the 
interest of Chinese operatives in influencing our congressional 
elections. I was not clear from your answer to Senator 
Lieberman whether you were saying that the FBI briefers told 
you not to report the information up the chain.
    Mr. Beers. Senator Collins, I do not remember being told 
that. My colleague is the person who stated that, but to the 
best of my memory then and to this day, I remember nothing with 
respect to any limitations on our ability to inform seniors--
that would have been the National Security Advisor and the 
Deputy National Security Advisor in this case--due to the 
nature of the briefing.
    Senator Collins. That leads me to ask you why you did not 
report the information. I know you said in response to a 
question from Senator Lieberman that this was one of many items 
and that it was not that specific, that it was vague reporting, 
but it seems to me that any report that a foreign country was 
trying to influence elections in the United States would cause 
you to bring that information to the attention of either the 
Deputy National Security Advisor or the National Security 
Advisor. So I am trying to better understand why you decided 
not to.
    Mr. Beers. Senator, if I thought that there was a program 
to try to influence the election that was known to be underway, 
I would have briefed my superiors. It was not clear to me from 
that briefing that this was not more than chatter with respect 
to an idea. But because they were unable to brief me on any 
specific targets or any more detail other than the notion that 
there was a notion that the Chinese might be thinking about 
doing something like this, I felt that it was in the nature of 
a preliminary briefing and I wanted to have more information 
before I briefed more senior people.
    Senator Collins. Did you follow up on the briefing to ask 
for additional briefings?
    Mr. Beers. Yes, ma'am, I did ask for additional information 
at that briefing. By the time this issue became a media 
discussion, I had not had an opportunity for a second follow-up 
on my own behalf. My colleague did talk to them, or at least I 
understand that he did talk to the Bureau about any additional 
information, but I was not privy to any details that there was 
any more information at that point in time.
    Senator Collins. By your colleague, are you talking about 
the FBI detailee assigned to you?
    Mr. Beers. That is correct.
    Senator Collins. So you did, at the conclusion of this 
briefing, ask your detailee to follow up and report back to you 
if there were subsequent developments?
    Mr. Beers. I asked both my colleague and the Bureau 
briefers to do the same.
    Senator Collins. And there never was further reporting to 
you?
    Mr. Beers. No. In fact, I never saw any further reporting 
on that subject.
    Senator Collins. So later that same year, the contributions 
by Chinese nationals to the presidential campaign, the Clinton-
Gore campaign, became a major issue, in fact, had led this 
Committee to do a major investigation. At that time, did you 
then recall the briefing that you had had indicating that there 
may have been an attempt by the Chinese to influence 
congressional campaigns?
    Mr. Beers. I did, and I spoke to the NSC Counsel at that 
point in time.
    Senator Collins. And was it at that point that Sandy Berger 
said to you, you should have brought this to our attention 
earlier?
    Mr. Beers. That is the point at which Mr. Berger and the 
White House General Counsel sought more information on what we 
knew.
    Senator Collins. Thank you. That is very helpful.
    Let me follow up with Senator Lieberman's other question, 
and that is on the cyber security issue. I have a lot of 
reservations about the establishment of a White House cyber 
security czar because it makes it far more difficult for 
Members of Congress to exercise our oversight responsibilities. 
We traditionally cannot call presidential advisors before the 
Committee. But I am also concerned in terms of accountability.
    Just this past Friday, the President announced that he is 
creating the cyber czar, and then yesterday Secretary 
Napolitano appointed a number of individuals within the 
Department of Homeland Security with cyber security 
responsibilities. In your testimony, you stated that the 
Directorate's overarching mission is to mitigate the risk to 
the Nation's cyberspace by cyber criminals and nation-states.
    So you have the cyber czar within the White House. You have 
a Director of the National Cyber Security Center within DHS. 
You have the head of the National Cyber Security Division. You 
have the Assistant Secretary for Cyber Security and 
Communications. And you have your position. So my question to 
you, Mr. Beers, is who is in charge?
    Mr. Beers. Senator Collins, thank you for that question. I 
think that it is an absolutely appropriate question. What 
Secretary Napolitano has sought to do in terms of aligning 
responsibilities within the Department is to create as close as 
possible, respecting the rules of the Senate about 
reorganizations of the Department of Homeland Security without 
recourse to congressional approval, a single chain of command 
that ends with the position of the Under Secretary for National 
Protection and Programs, which if you confirm me would be me. 
Working for me will be a respected cyber security individual, 
Philip Reitinger, who is already appointed the Deputy Under 
Secretary for NPPD, but is now also dual-hatted as the Director 
of the National Cyber Security Center. Under him would be the 
Assistant Secretary for Cyber Security and Communications, and 
under him would be the office within that assistant 
secretaryship which carries out the specific and detailed and 
operational functions within the Department.
    We believe that with respect to the individuals who are 
already in place or who are now named, we are assembling the 
strongest possible team that DHS could put together in order to 
give you and the country some assurance that DHS is here to do 
whatever it can, within the law, obviously, to protect 
America's cyber infrastructure, and I would hope that you would 
confirm me to be a part of that team.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    If I may, with Senator Akaka's permission, that was a 
really important question that Senator Collins asked you. I was 
going to ask it myself in a second round. To me, your answer 
was clear, which is that if you are confirmed, you will be in 
charge of the cyber security effort for the Department of 
Homeland Security.
    Mr. Beers. Yes, sir.
    Chairman Lieberman. Can I ask just one more quick question? 
On the so-called cyber czar in the White House, not yet named, 
do I understand correctly that the position will have no 
operational authority?
    Mr. Beers. That is my understanding, as well, sir. That was 
the discussion that went through the review study, as I was 
able to ascertain, and it will be a coordinating function in 
the tradition of the National Security Council staff, or now 
the National Security staff based on the new reorganization.
    Chairman Lieberman. Right. And what the new Cyber Security 
Coordinator will be coordinating is the work that you will be 
doing, that the NSA will be doing, that the Department of 
Defense will be doing. Have I left any big ones out?
    Mr. Beers. Yes, sir, you have. The Department of the 
Treasury, the Department of Commerce----
    Chairman Lieberman. Right.
    Mr. Beers [continuing]. And the Department of Justice would 
be three other major participants in this, as well as the rest 
of the civilian side of the government. As you will recall, the 
National Cyber Security Center and the Department of Homeland 
Security Cyber Security and Communications Office are together 
working to provide a defensive system to protect the U.S. 
Government from cyber intrusions. That will require our working 
with all of those cabinet departments and agencies, and 
sometimes, I am sorry to say, we need help from the White House 
in order to get people to play in the same sandbox.
    Chairman Lieberman. Understood. Thank you.
    Senator Akaka, thanks for being here.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I am glad 
to be here and add my welcome to Mr. Beers and also welcome his 
family, wife, son, and brother to this hearing.
    Mr. Beers, looking over what you have consented to do, you 
have a tremendous position, a tremendous job, and tremendous 
challenges before you. As Under Secretary for National 
Protection and Programs, your charge will be to take proactive 
steps to protect our national infrastructure and resources, and 
that is a huge undertaking. I am pleased with your focus on 
resiliency in your approach to strengthening homeland security, 
as well as your interest in working with partners. That is 
another part of your position, to work with other parts of the 
government at all levels, as well as the private sector. So, in 
looking at all of this, my feeling is that you are going to be 
all over the place in homeland security, but I am hopeful that 
you will address the human capital and management challenges 
within NPPD so that the Directorate can meet its operational 
requirements. All in all, I feel that your job is hugely 
operational.
    In your response to the Committee's policy questions, you 
stated that NPPD's most significant challenge to accomplishing 
its mission is its ability to hire enough highly qualified 
employees to meet the rapidly growing demands on the 
Directorate. So my question to you is, what is your overall 
approach not only to recruiting these workers, but also to 
training and even retaining them?
    Mr. Beers. Senator, thank you for that question. It is 
truly the first challenge, if I am confirmed, that I will face, 
and I have thought about it. I have been briefed about it. I 
have talked with my colleagues about it. Philip Reitinger has 
already begun some of the process that we need to put in place 
in order to bring people on board.
    We have no absence of people who apply for the positions. 
We have no absence of people who are fully qualified for the 
positions. We have a problem with the process for actually 
taking them on board, and that represents the challenge that he 
has begun and that I hope I might be permitted to continue. In 
particular, we have to look very carefully at all of the 
processes leading up to the job offer and the security 
clearance, and that means that the processes for posting the 
positions, reviewing the individuals who are considered 
qualified, and selecting those for hiring are done in an 
expeditious fashion, and they have not been always done as 
quickly as they might be, and Mr. Reitinger has taken that task 
on.
    We have discussed further what more might be done with 
respect to the security clearance process, not to make the 
clearance less serious or robust, but to determine whether or 
not we are putting ourselves in a bind with respect to the 
over-classification of some of the positions, that is, 
positions where it might be nice to have a ``top secret'' 
clearance, but the ``top secret'' information would only be 
necessary in very rare occasions, or whether or not for those 
individuals who have clearances from other agencies there might 
be a better arrangement in order to at least grant interim 
clearances while the full background was done by the Department 
of Homeland Security, if in fact that was even necessary.
    This was one of the things that the 9/11 Commission looked 
at in terms of the granting of clearances in the U.S. 
Government and the stovepipe system that currently exists, and 
it is certainly one that I want to examine with my colleagues 
if I am confirmed and one that I know the Office of the 
Director of National Intelligence is also interested in. So I 
think that there are opportunities to move from the current 
level of Federal employees to a higher level in a much shorter 
period of time than it has taken to get to the level that we 
are at at this particular point in time, and I regard that as a 
major challenge.
    Senator Akaka. Well, I am glad to hear that you look upon 
that as an opportunity. This is one area where we have been 
lacking. Senator Voinovich and I, he is the champion, have been 
working hard on human capital over the years, and for good 
reason, and we are still working on it. So your work on human 
capital would certainly help, and I hope, as you said, you look 
upon it as an opportunity.
    I am pleased that you see the need to convert some contract 
work into career civil service positions to ensure that NPPD 
has the internal capacity to perform its core functions and 
that contractors are not performing inherently governmental 
work. In particular, your response to the Committee's policy 
questions noted that contract employees are currently serving 
as NPPD's Directors for Resource Administration and Human 
Capital. In my opinion, these seem to be inherently 
governmental functions. What is your timeline for converting 
these and other contract positions into civil service 
positions?
    Mr. Beers. Sir, it is my intention to move as quickly as I 
possibly can to make those conversions, recognizing that it is 
not always a one-for-one replacement. But with respect to 
inherently governmental functions, I want to move as quickly as 
possible to put in place Federal employees, recognizing that 
the contracting function that the Department and NPPD has may 
not allow the termination of the contract without financial 
penalties. We will have to look at all of those considerations 
in how we move forward, but I do not believe that it has to be 
a restriction in terms of bringing on board the right people 
for the right positions as Federal employees. So as a general 
answer, we will move as quickly as possible to bring people in. 
How quickly we can terminate the contractors and replace them 
will depend on the contract itself and the financial 
obligations of the contract.
    Senator Akaka. Well, thank you very much for your 
responses, Mr. Beers.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Burris, welcome.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman and Ranking Member 
Collins.
    I would like to welcome Mr. Beers before the Committee as 
we consider his nomination for Under Secretary for the 
Department of Homeland Security and the National Protection and 
Programs Directorate. Mr. Beers, from what I have read, you 
have a remarkable career in public service, and I was really 
impressed with that. I am glad to see you continuing to want to 
serve. Your background and demonstrated expertise in the field 
of national security will serve you well if you are confirmed.
    I heard Senator Akaka just ask a couple of questions that I 
was going to ask, so let me switch back further in my notes and 
see if we can get you to answer this question.
    You stated that although you believe the organization of 
the National Protection and Programs Directorate allows it to 
complete its mission, you would review its structure, if 
confirmed. Are there any specific aspects of the National 
Protection and Programs Directorate that you can identify at 
this point that will yield greater efficiencies? Would a review 
of the organizational structure be an immediate priority?
    Mr. Beers. Sir, I have looked at the Directorate. We have 
actually focused on one of the major changes that I would make, 
which is not so much organizational, although it would result 
in a different culture, and that is, move from the 50 percent 
level of contract employees present in our offices and move in 
the direction of a much higher percentage of Federal employees 
as quickly as possible.
    With respect to organization and reorganization, the 
Department has put forward in the appropriation for fiscal year 
2010 a major reorganization move which would move the Federal 
Protective Service from Immigration and Customs Enforcement to 
the National Protection and Programs Directorate. That would be 
a major reorganization, if approved. There are over 1,000 
Federal law enforcement officers within the FPS, and they 
supervise over 15,000 contract employees which have been part 
of the Federal system of protecting our Federal buildings, from 
cabinet agencies to courthouses, around the country. That would 
represent a major change in both the size and management 
challenges. The Directorate has already begun a series of 
discussions and seminars with the Federal Protective Service so 
that if Congress approves that change, we would be ready to 
move as seamlessly as possible to including them within the 
NPPD umbrella.
    Beyond that, I have some ideas that I have been tossing 
around in my mind, but sir, I have to say I have been around 
government long enough to know that, first, there is a whole 
lot of difference between observing an organization from the 
outside and observing an organization from the inside, and I am 
reluctant to go entirely on my preliminary visions about what I 
might be prepared to do.
    And second, sir, I want to be able to talk to the employees 
specifically about this. I do not want them to hear about my 
thinking about reorganization without an opportunity to talk to 
them. So beyond the FPS proposal, there are some ideas that I 
have, but I would prefer not to talk about them publicly until 
I----
    Senator Burris. It sounds like to me, Mr. Beers, that you 
are going to do the reverse. It was always contracting 
services. Government is contracting everything out. It looks 
like to me you are saying that you will look at, when those 
contracts expire, hiring some of those people who have been 
working for the contractor and bringing them back into the 
government. Where else are you going to get the talent and 
experience to bring these people in? There would be a timetable 
involved if you were to use individuals who are not experienced 
and currently working with the contractor, would that not be 
so?
    Mr. Beers. Sir, we have right now a hiring program for 
approximately 500 individuals. A number of those individuals 
would come on as chemical inspectors. A large other number 
would come to work in our National Cyber Security Division. We 
have had no dearth of applicants from the private sector, 
retired government officials, retired military and law 
enforcement officials, people who do come out of the 
contracting world----
    Senator Burris. Well, now, if they are retired officials 
and they are on a pension, would they come back and have to 
deal with their pension arrangements with the Federal 
Government?
    Mr. Beers. It depends on what system they were under, sir. 
If they were in the military, they would be permitted to 
receive a second government salary in addition to their 
pension. If they were with a law enforcement agency, some of 
them would be permitted to come back and have a second 
contract. If they were like me, and I am a pensioner, sir, no. 
You get just your government salary.
    Senator Burris. So are you telling me you are giving up 
your pension to come back?
    Mr. Beers. Yes, I am giving up my pension, but the amount 
of money I would receive if I am confirmed will be larger than 
my pension----
    Senator Burris. OK.
    Mr. Beers [continuing]. Although my pension is a very 
generous pension for 36 years of government service.
    Senator Burris. I would imagine so. That is a great deal of 
service. Thank you very much, Mr. Beers.
    Mr. Beers. Thank you, sir.
    Senator Burris. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Burris. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. First of all, Mr. Beers, I think that we 
are lucky to have someone like you with experience and 
background who is interested in continuing to serve our 
country. Thank you for your willingness to do that.
    Mr. Beers. Thank you, sir.
    Senator Voinovich. When you are confirmed, you will oversee 
efforts to develop and implement a biometric entry and exit 
system, which Congress has been calling for since the PATRIOT 
Act was enacted back in 2001 and which the 9/11 Commission 
called an essential investment in national security. You have 
said that ``implementing an effective air entrance and exit 
solution,'' would be one of your top priorities, if confirmed, 
but I notice that you excluded the word ``biometric'' from your 
description. Will implementing a biometric air entry and exit 
system be a priority for you?
    Mr. Beers. Yes, sir, and I regret that I neglected to use 
the word ``biometric.'' It was certainly in my mind when I 
reviewed the answers to those questions and signed the 
statement. Yes, it will be biometric, sir.
    Senator Voinovich. Recently, I met with the head of another 
DHS component, and he told me that he believes implementing a 
biometric air entry and exit system would be cost prohibitive. 
Do you agree with that assessment, and why or why not? Maybe 
you have not been around long enough to be able to answer that, 
but this is a pretty high up person, and he said that it would 
be prohibitive.
    Mr. Beers. Sir, if the solution selected involves using 
U.S. Government employees to implement such a system, we would 
have to come back to the Congress with a budget proposal that 
would allow us to undertake those responsibilities. We are 
currently looking at the pilot program. When we have the 
results from that pilot program and are ready to make a 
selection between an airline implementing solution or a 
government implementing solution, we will also do our homework 
to talk about what the cost would be, and we will come back to 
you with that.
    Senator Voinovich. Now, I think----
    Mr. Beers. Whether it is cost prohibitive or not, I am not 
in a position at this point in time to tell you because we have 
not actually run the numbers in a hard fashion for that 
particular option.
    Senator Voinovich. It is my understanding the airlines 
opted out of the biometric pilot being conducted now and that 
Customs and Border Protection is part of this testing and the 
other group that is doing it is the Transportation Security 
Administration (TSA).
    Mr. Beers. That is correct, sir. The airlines declined to 
participate in the test program. We will factor that into the 
pilot results and make our judgments known and work with 
Congress to move forward.
    Senator Voinovich. Well, one of the things I would like to 
point out is that there is no money requested in the budget to 
actually begin implementing biometric air exit during fiscal 
year 2010. I understand there is more than $20 million in prior 
year funds that can be used for further biometric air exit work 
in 2010, but the 2-month-long air exit pilot projects that US-
VISIT is conducting will cost more than $5 million. So $20 
million will not go very far. I am concerned about the lack of 
significant funding for this system because the Department's 
waiver authority to bring new countries in to the visa waiver 
program is linked to the creation of a biometric air exit 
system. Without funding, how would we move forward in fiscal 
year 2010 to meet congressional mandates to develop that 
biometric air exit system?
    The point I am getting at is that we have countries now 
that have come into the visa waiver program, a total of eight 
new ones. There are no other countries ready to come in right 
now, but there may be, I think, in 2010. But the statute 
provides that if the biometric air exit system is not in place, 
then the Secretary authority to waive visa refusal rates 
exceeding 3 percent stops. That is, you cannot bring in many 
more countries, so aspirant countries go into limbo. And my 
concern is that if we do go forward with biometric air exit, 
and you said you think it is a good idea, then I think there 
ought to be some money so that you can implement it and we do 
not end up, as I say, in limbo with our visa waiver program 
expansion, which is not only important to our national 
security, but also to public diplomacy for this country because 
there are a lot of countries out there right now that would 
like to get into the program and are hoping to get in, but 
without this system, they cannot be waived in.
    Mr. Beers. Sir, you are absolutely right in that regard. It 
would appear to me, as well, that $20 million would not be 
enough to implement that kind of a program if it becomes a 
government program, and that is why I said what we need to do 
at the conclusion of the pilot test is come forward with, first 
of all, where we think the solution ought to go and, if it is a 
government program, with a way to pay for it because I am 
committed to it and want to work with you and other Members of 
Congress to implement that program because I believe it is 
important to the security of this country.
    Senator Voinovich. Well, I may call the Secretary because I 
am Ranking Member on that Homeland Security Appropriations 
Subcommittee and maybe we could stick some money in there so 
that if you do decide to go forward with it, you have some 
money to work with and we can move forward with it.
    In 2007, DHS released scorecards evaluating the 
interoperable communications capabilities with major cities. I 
took it upon myself to visit the four cities in Ohio where 
those scorecards were issued. I thought the scorecards were 
terrific because they showed that we only had one city that 
really was up to snuff in Ohio. The rest of them were not 
there. I would like to suggest to you that those scorecards 
were a great idea, and I would hope that you might revisit that 
program so that we could go out and do another evaluation of 
where cities are to see if they have made any improvements 
because interoperability is fundamental, I think, to any kind 
of response to either a natural disaster or a terrorist attack.
    Mr. Beers. Sir, you and other Members of this Committee and 
the Congress have made that clear to us, and I totally agree 
with you that this is an absolutely vital program to protecting 
America, and I look forward to working together with you and 
other Members of this Committee to make that program a reality. 
So you have my commitment to that.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thank you. Well done.
    Let us do a second round of 5 minutes each, if Members have 
additional questions.
    Mr. Beers, let me focus on the Office of Infrastructure 
Protection that comes under the Directorate you have been 
nominated to head, which is now, as you said, tasked with 
coordinating a national program to reduce the risk to the 
Nation's 18 critical infrastructure and key resources sectors. 
These sectors are wide-ranging and include areas such as 
energy, information technology, water, and financial--really 
the basis of the way we live in our country today. All of them 
are critical, but obviously we have limited resources and 
therefore prioritization is necessary.
    I would say up until this point that the transportation and 
chemical sectors have been a focus of the Department. Are there 
sectors that you believe have not yet received adequate focus 
and should now become added to the Department's top priority 
list?
    Mr. Beers. Sir, one of the major reasons that I took this 
job was the cyber function that was embedded in this job----
    Chairman Lieberman. Yes.
    Mr. Beers [continuing]. And in that particular sector and 
the cross-sector committee on cyber security, that would be one 
of my major efforts in the 18 critical sectors. The second 
would be the electrical sector. It is hard for cyber security 
to work without electricity. It is hard for the critical 
infrastructure, cyber infrastructure, to work without 
electricity. So I would want to make sure that we were as 
confident as we might be that those two sectors were receiving 
as much attention as needed.
    I do not want to in any way, however, diminish the 
importance of the other sectors----
    Chairman Lieberman. Sure.
    Mr. Beers [continuing]. But you asked for the principal 
ones that I would focus on at the start, and those are the two, 
sir.
    Chairman Lieberman. Well, that is a helpful and encouraging 
answer. One related question is we know, of course, that today, 
electricity depends on cyber systems, as well. In 2007, the 
Department of Homeland Security, working with the Idaho 
National Laboratory, discovered a cyber vulnerability known as 
``Aurora,'' which has the potential to do really long-term 
costly damage to mechanical equipment essential to the 
operations of the electric sector. The reality is that if 
vulnerabilities like Aurora are strategically compromised in a 
coordinated manner, large portions of the United States could 
be without electricity for a long period of time.
    Do you believe that current efforts to secure the electric 
sector from cyber attack are sufficient? If not, give us a 
general idea what your plan would be to try to improve them.
    Mr. Beers. Sir, you are absolutely right in referring to 
that study in terms of the significant vulnerability. I do not 
believe we have adequately addressed that vulnerability or 
other vulnerabilities, and that is why I intend to look at the 
individual protections for these data systems that serve as the 
controls for the electrical grid and specifically at those 
generators that were deemed to be so vulnerable. I think we 
need to erect our cyber defenses not just in the U.S. 
Government, but ensure that the private sector is aware of the 
possibilities and takes advantage of those defenses insofar as 
they can bring them to bear on the vast amount of our critical 
infrastructure that is in the private sector.
    Chairman Lieberman. Well, I appreciate that answer. I 
appreciate what you said earlier, that cyber defense is 
probably the No. 1 reason why you have taken on this 
assignment. Part of the challenge obviously is how do you and 
all those working with you in the Department of Homeland 
Security get the private sector, which owns and operates most 
of the critical infrastructure, to do what needs to be done to 
protect our homeland security, particularly if it costs money 
to do it at a difficult economic time.
    I will come back to this with you, Mr. Beers, but I hope as 
you go through these issues, if you are confirmed, at the 
beginning of your service in this position, if you feel that 
you need additional legislative authority to get the private 
sector to do what we need them to do in the national interest, 
I hope you will not hesitate to let this Committee know.
    Mr. Beers. Thank you, sir. I will.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    I want to follow up on an exchange you had with Senator 
Voinovich, who talked about the importance of interoperable 
communications. This has been a priority of the Chairman and 
mine for several years, and we made some progress, but not 
enough.
    Several years ago, the Integrated Wireless Network project 
was begun and the goal was to create a nationwide consolidated 
interoperable wireless communications system for the law 
enforcement officials at the Department of Homeland Security, 
the Department of Justice, and the Treasury Department. Despite 
spending hundreds of millions of dollars, a Government 
Accountability Office (GAO) report in December of last year 
found that the program had failed, and it had failed due to a 
lack of leadership within the participating agencies. In the 
Department of Homeland Security's response to the GAO report, 
the reason given for abandoning the joint program was ``because 
the Department of Justice and DHS have different regional 
priorities, a common system will not work at the national 
level.'' Now, keep in mind this is after spending hundreds of 
millions of dollars to achieve this.
    What is your view of having an interoperable communications 
system for Federal law enforcement officers regardless of which 
agency they are employed by?
    Mr. Beers. First of all, as a general proposition, Senator 
Collins, I am committed to that objective. I think that it just 
makes really good common sense. I understand that the 
Department has spent a large amount of money without success, 
although I am told that there was a successful test bid in the 
Pacific Northwest that seemed to be operating effectively. But 
you are right about the GAO report conclusion and the statement 
that the Department gave you in response to that GAO report.
    I am committed to looking into this. I understand that the 
concept of the Emergency Communications Preparedness Center is 
a hoped-for solution to this problem, but it is the kind of 
thing that I am going to have to dig into if I am confirmed and 
probably work further with you all in order to get the right 
answer. But I am committed to getting to yes in this general 
proposition. The notion that somehow we cannot find a common 
solution just because different departments and agencies have 
different ways of doing business is kind of the same thing that 
we are wrestling with US-VISIT, which is how do you merge the 
databases that different departments and agencies have in order 
to have the most effective common database. And I am not saying 
that it is easy, but it also seems to me that it is something 
that a little bit of elbow grease and attention might be able 
to resolve a little more easily than throwing up your hands.
    Senator Collins. I certainly agree with you. The 
Department's response to the GAO report sounds like a turf 
battle to me rather than focusing on what the objectives should 
be. It is certainly ironic that the Department--correctly, in 
my view--has pushed State, regional, and local law enforcement 
to work together on interoperable systems and yet has thrown up 
its hands and apparently abandoned an attempt to have an 
interoperable system across the Federal Government. So I am 
pleased to hear your response, and we look forward to working 
with you on that.
    Let me switch to another issue, which is the chemical 
security law, which as an author of that law is of great 
interest to me. I read with interest that in 2006, you co-
chaired a task force on homeland security established by the 
Century Foundation, which issued a report that had a chapter on 
chemical site security. Now, this was before we were successful 
in getting the law passed. But you have two recommendations 
that are not included in the current law. One was to provide 
liability protection and the other terrorism insurance premium 
reductions for chemical plants that are in compliance with the 
Federal chemical security regime. Do you still agree with those 
recommendations, or is it something you would still pursue?
    Mr. Beers. It is something that I certainly want to look at 
in the context of the chemical legislation reauthorization, 
although, as you know, the Administration only asked to roll 
over the existing authorization in this fiscal year in order to 
give ourselves in the Executive Branch time to make sure that 
we had the right answer to that question.
    I would certainly like to look at that, if I am confirmed, 
as an element. As I said earlier, being on the inside and 
looking in from the outside are two different perspectives. I 
am not saying that my perspective will not change. I am not 
saying that it will change. But I certainly want to take the 
opportunity to look at this reauthorization and thank all of 
you on this Committee for that legislation. I care deeply about 
that, as indicated in that book and efforts that I undertook to 
look at this issue from the time that I left government, and so 
you all are to be commended for a terrific piece of 
legislation.
    Senator Collins. Thank you. I appreciate that. This 
Committee has tried to identify gaps and emerging 
vulnerabilities and pass legislation to try to get ahead of the 
curve, and I will be looking forward to your recommendations. I 
am aware that the Department and the Administration has asked 
for a one-year extension of the sunset deadline, or the 
expiration of that law, and we look forward to working with 
you.
    Just one final question. In your responses to Senator 
Lieberman and in your responses to the pre-hearing questions, 
you indicated your willingness to respond to requests for 
information from this Committee. I would be remiss in my duties 
as the Ranking Minority Member if I did not ask that you treat 
requests from the Chairman and from the Ranking Member equally, 
even though I can assure you that 90 percent of the time, those 
will be joint requests and this Committee prides itself on its 
bipartisan approach to these issues. But would you respond to 
requests from the minority equally?
    Mr. Beers. Without reservation.
    Senator Collins. Thank you.
    Mr. Beers. I have worked for Administrations in which the 
Executive Branch and the Legislative Branch were not always led 
by the same party, and I have worked when they were the same 
party, and I have worked with both parties and served both 
parties. I look forward to working with the minority as well as 
the majority.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    I want to give you a special assignment, Mr. Beers, in your 
review of the Chemical Facility Anti-Terrorism Standards Act. 
It is called CFATS, which has become pronounced in government 
circles as ``see-fats.'' We can do better than that, and I am 
counting on you. [Laughter.]
    Mr. Beers. Thank you, sir. That is a challenge.
    Chairman Lieberman. I think they have a whole unit over at 
the Pentagon because in the Pentagon, this would be called 
Operation Sturdy Strong Cleanup or something. [Laughter.]
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. I just have a 
general question.
    Mr. Beers, Homeland Security is a relatively new 
Department. It was a conglomeration of responsibilities coming 
from various other sources and agencies. If you are confirmed, 
do you think that you will have a pretty good working knowledge 
to pull all of those functions together and overcome all the 
turf battles? Do you see any turf battles that might be 
inhibiting you at this point to carry out NPPD's major 
functions?
    Mr. Beers. Sir, you are absolutely correct in your 
characterization of the Department, and the evolution of this 
bringing together of a number of different agencies from 
different departments was a challenge at the beginning and 
continues to be an ongoing issue. It is certainly one that 
Secretary Napolitano recognized when she took over the 
Department and one which she has listed as one of her five 
major priorities.
    There are some rivalries. There are some turf battles. I do 
not believe that any of them are insurmountable, but I also 
have to tell you in all candor, sir, I served much of my career 
in the Department of State, and to say that there are not turf 
battles in the Department of State among the offices in that 
Department would be to ignore over 100 years of history in that 
particular Department. So it is not always true that the 
passage of time resolves all challenges, but it is certainly 
one that the Secretary and I, if I am confirmed, will take on 
as an important issue, to make sure that she says we have one 
DHS and not 37 different entities within a Department.
    Senator Burris. Yes, because I see that you are going to 
take over, what is it, the FPC, or----
    Mr. Beers. FPS, sir. The Federal Protective Service.
    Senator Burris. Yes. So if you begin to try to move that 
away, I can just see that there might be some turf problems 
starting there if that were the case.
    Mr. Beers. Sir, that is an interesting question because 
there has been a lot of discussion about where the Federal 
Protective Service would be best located, including some people 
who have said that perhaps it ought to go back to the General 
Services Administration from which it was plucked and put into 
the Department of Homeland Security.
    Senator Burris. I used to run a similar General Services 
for the State of Illinois----
    Mr. Beers. Yes, sir.
    Senator Burris [continuing]. And have had this experience 
of turf problems.
    Mr. Beers. Yes, sir. When you think conceptually about what 
that law enforcement agency does, protecting Federal critical 
infrastructure, and the responsibility of the Infrastructure 
Protection Office in NPPD, there really is, I think, an 
alignment here of missions, and one of our sectors is the 
Federal, State, local, tribal, and territorial governmental 
infrastructure. So this actually, I think, represents a good 
conceptual fit. Now, if that happens, what NPPD will need to do 
is make sure that the transfer from Immigration and Customs 
Enforcement to NPPD is done as smoothly as possible so that the 
normal turbulence associated with any kind of a move of that 
magnitude does not come to be crippling to the roles and 
missions of the FPS or NPPD.
    Senator Burris. Mr. Beers, I want to congratulate you and 
look forward to you continuing your work with public service. I 
am just admiring your ability to come back and extend that 
talent and commitment that we need at such a crucial time. 
Congratulations to you.
    Mr. Beers. Thank you, sir, for your kind words.
    Chairman Lieberman. Well said, Senator Burris.
    Thanks, Mr. Beers, for your testimony today, for your 
willingness to serve. If confirmed, you are going to be in a 
truly critical position for our homeland security, and your 
entire career, fortunately for us, prepares you for it, so I 
thank you for your willingness to serve again. I thank your 
family for backing you up. We have almost a reflex reaction 
that is quite appropriate in the Armed Services Committee of 
thanking the nominees and their families. We probably do not do 
that enough in the other committees, so we thank the people 
behind you.
    Without objection, the record for this hearing will be kept 
open until 12 noon tomorrow for the submission of any written 
questions or statements for the record, and we hope very much 
to be able to move your nomination out of the Committee and 
through the Senate as soon as possible.
    Do you have anything else you would like to say in your 
defense before we execute judgment? [Laughter.]
    Mr. Beers. No, sir. Thank you very much for the opportunity 
to appear before you and to answer your questions. It was a 
pleasure.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Mr. Chairman, I just want the nominee to 
know that I have introduced a bill to allow the reemployment of 
annuitants without having their pensions offset in order to 
help us attract people back into government. However, in your 
case, the bill, I regret to tell you, would not apply because 
it is limited to part-time work over a limited period of time, 
and if all goes well, we hope that you will not be doing part-
time work when you are at the Department.
    Thank you, Mr. Chairman.
    Mr. Beers. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    The hearing is adjourned.
    [Whereupon, at 3:55 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1780.001

[GRAPHIC] [TIFF OMITTED] T1780.002

[GRAPHIC] [TIFF OMITTED] T1780.003

[GRAPHIC] [TIFF OMITTED] T1780.004

[GRAPHIC] [TIFF OMITTED] T1780.005

[GRAPHIC] [TIFF OMITTED] T1780.006

[GRAPHIC] [TIFF OMITTED] T1780.007

[GRAPHIC] [TIFF OMITTED] T1780.008

[GRAPHIC] [TIFF OMITTED] T1780.009

[GRAPHIC] [TIFF OMITTED] T1780.010

[GRAPHIC] [TIFF OMITTED] T1780.011

[GRAPHIC] [TIFF OMITTED] T1780.012

[GRAPHIC] [TIFF OMITTED] T1780.013

[GRAPHIC] [TIFF OMITTED] T1780.014

[GRAPHIC] [TIFF OMITTED] T1780.015

[GRAPHIC] [TIFF OMITTED] T1780.016

[GRAPHIC] [TIFF OMITTED] T1780.017

[GRAPHIC] [TIFF OMITTED] T1780.018

[GRAPHIC] [TIFF OMITTED] T1780.019

[GRAPHIC] [TIFF OMITTED] T1780.020

[GRAPHIC] [TIFF OMITTED] T1780.021

[GRAPHIC] [TIFF OMITTED] T1780.022

[GRAPHIC] [TIFF OMITTED] T1780.023

[GRAPHIC] [TIFF OMITTED] T1780.024

[GRAPHIC] [TIFF OMITTED] T1780.025

[GRAPHIC] [TIFF OMITTED] T1780.026

[GRAPHIC] [TIFF OMITTED] T1780.027

[GRAPHIC] [TIFF OMITTED] T1780.028

[GRAPHIC] [TIFF OMITTED] T1780.029

[GRAPHIC] [TIFF OMITTED] T1780.030

[GRAPHIC] [TIFF OMITTED] T1780.031

[GRAPHIC] [TIFF OMITTED] T1780.032

[GRAPHIC] [TIFF OMITTED] T1780.033

[GRAPHIC] [TIFF OMITTED] T1780.034

[GRAPHIC] [TIFF OMITTED] T1780.035

[GRAPHIC] [TIFF OMITTED] T1780.036

[GRAPHIC] [TIFF OMITTED] T1780.037

[GRAPHIC] [TIFF OMITTED] T1780.038

[GRAPHIC] [TIFF OMITTED] T1780.039

[GRAPHIC] [TIFF OMITTED] T1780.040

[GRAPHIC] [TIFF OMITTED] T1780.041

[GRAPHIC] [TIFF OMITTED] T1780.042

[GRAPHIC] [TIFF OMITTED] T1780.043

[GRAPHIC] [TIFF OMITTED] T1780.044

[GRAPHIC] [TIFF OMITTED] T1780.045

[GRAPHIC] [TIFF OMITTED] T1780.046

[GRAPHIC] [TIFF OMITTED] T1780.047

[GRAPHIC] [TIFF OMITTED] T1780.048

[GRAPHIC] [TIFF OMITTED] T1780.049

[GRAPHIC] [TIFF OMITTED] T1780.050

[GRAPHIC] [TIFF OMITTED] T1780.051

[GRAPHIC] [TIFF OMITTED] T1780.052

[GRAPHIC] [TIFF OMITTED] T1780.053

[GRAPHIC] [TIFF OMITTED] T1780.054

[GRAPHIC] [TIFF OMITTED] T1780.055

[GRAPHIC] [TIFF OMITTED] T1780.056

[GRAPHIC] [TIFF OMITTED] T1780.057

[GRAPHIC] [TIFF OMITTED] T1780.058

[GRAPHIC] [TIFF OMITTED] T1780.059

[GRAPHIC] [TIFF OMITTED] T1780.060

[GRAPHIC] [TIFF OMITTED] T1780.061

[GRAPHIC] [TIFF OMITTED] T1780.062

[GRAPHIC] [TIFF OMITTED] T1780.063

[GRAPHIC] [TIFF OMITTED] T1780.064

[GRAPHIC] [TIFF OMITTED] T1780.065

[GRAPHIC] [TIFF OMITTED] T1780.066

[GRAPHIC] [TIFF OMITTED] T1780.067

[GRAPHIC] [TIFF OMITTED] T1780.068

[GRAPHIC] [TIFF OMITTED] T1780.069

[GRAPHIC] [TIFF OMITTED] T1780.070

[GRAPHIC] [TIFF OMITTED] T1780.076

[GRAPHIC] [TIFF OMITTED] T1780.071

[GRAPHIC] [TIFF OMITTED] T1780.072

[GRAPHIC] [TIFF OMITTED] T1780.073

[GRAPHIC] [TIFF OMITTED] T1780.074

[GRAPHIC] [TIFF OMITTED] T1780.075

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
